<html>
<title> - BETTER COORDINATING WELFARE PROGRAMS TO SERVE FAMILIES IN NEED</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                BETTER COORDINATING WELFARE PROGRAMS TO
                         SERVE FAMILIES IN NEED

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

                            Serial 114-HR07

                               __________

         Printed for the use of the Committee on Ways and Means




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-286                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          




                      COMMITTEE ON WAYS AND MEANS

                      KEVIN BRADY, Texas, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
DEVIN NUNES, California              CHARLES B. RANGEL, New York
PATRICK J. TIBERI, Ohio              JIM MCDERMOTT, Washington
DAVID G. REICHERT, Washington        JOHN LEWIS, Georgia
CHARLES W. BOUSTANY, JR., Louisiana  RICHARD E. NEAL, Massachusetts
PETER J. ROSKAM, Illinois            XAVIER BECERRA, California
TOM PRICE, Georgia                   LLOYD DOGGETT, Texas
VERN BUCHANAN, Florida               MIKE THOMPSON, California
ADRIAN SMITH, Nebraska               JOHN B. LARSON, Connecticut
LYNN JENKINS, Kansas                 EARL BLUMENAUER, Oregon
ERIK PAULSEN, Minnesota              RON KIND, Wisconsin
KENNY MARCHANT, Texas                BILL PASCRELL, JR., New Jersey
DIANE BLACK, Tennessee               JOSEPH CROWLEY, New York
TOM REED, New York                   DANNY DAVIS, Illinois
TODD YOUNG, Indiana                  LINDA SANCHEZ, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
TOM RICE, South Carolina

                     David Stewart, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

             CHARLES W. BOUSTANY, JR., Louisiana, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
KRISTI NOEM, South Dakota            JOHN LEWIS, Georgia
PAT MEEHAN, Pennsylvania             JOSEPH CROWLEY, New York
GEORGE HOLDING, North Carolina       DANNY DAVIS, Illinois
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois
























                            C O N T E N T S

                               __________
                                                                   Page

Advisory of November 3, 2015 announcing the hearing..............     2

                               WITNESSES

Maura Corrigan, Visiting Fellow, American Enterprise Institute 
  (AEI)..........................................................    13
Geoff Davis, Member of Congress (retired), Republic Consulting, 
  LLC............................................................     7
Robert Greenstein, President, Center on Budget and Policy 
  Priorities (CBPP)..............................................    37
Nick Lyon, Director, Michigan Department of Health and Human 
  Services (MDHSS)...............................................    26
Scott Sanders, Executive Director, National Association of State 
  Workforce Agencies.............................................    57

                              SUBMISSIONS

Articles.........................................................   100
 
     BETTER COORDINATING WELFARE PROGRAMS TO SERVE FAMILIES IN NEED

                              ----------                              


                       TUESDAY, NOVEMBER 3, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 1100, Longworth House Office Building, the Honorable 
Charles W. Boustany, Jr., [chairman of the subcommittee] 
presiding.
    [The advisory announcing the hearing follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    
   

    Chairman BOUSTANY. The subcommittee will come to order.
    Good morning to everyone. This hearing is the latest in our 
series on moving America's low income individuals and families 
forward. In prior hearings we reviewed how families are faring, 
what actually works to help them, some ways to address fraud 
and abuse, how current programs discourage work and higher 
earnings, and more.
    We have drafted possible reforms to the TANF program and 
are reviewing how best to move those forward, and all along the 
way we have actually listened to real people, trying to 
navigate these programs and find the work and earnings they 
need to escape poverty for good.
    Today's hearing takes a step back and reviews the dizzying 
array of programs designed to help low income families and how 
that patchwork of programs complicates the challenges for those 
most in need.
    This Federal welfare system is large, fragmented, and 
growing in cost. The nonpartisan Congressional Research Service 
estimates that we currently operate over 80 programs that 
provide food, housing, health care, job training, education, 
energy assistance, and cash to low income Americans.
    I have a chart I want to show here, if we could put the 
chart up on the screen. Here you see a graphic depiction of 
that array of benefit programs designed to help low income 
individuals and families. This chart was an adaptation from a 
nonpartisan CRS report, and in short, it shows a mess.
    This system may have started out with very good intentions, 
but it has become over the years a confusing maze of programs 
that are overlapping, duplicative, poorly coordinated, and 
difficult to administer.
    I defy anyone to say that this is the best way to address 
the human tragedy so many of our fellow citizens experience. We 
spend roughly $750 billion at the Federal level on these 
programs and hundreds of billions more at the State level. All 
told, taxpayers provide $1 trillion per year in help for low 
income American. Yet today there are 9.4 million more Americans 
living below the poverty line than there were in 2007, before 
the last recession.
    In sum, we are spending more and getting worse results when 
it comes to promoting the work and earnings that keep families 
out of poverty.
    A number of these programs like TANF, SSI and Child Welfare 
are under the jurisdiction of this Subcommittee. Others come 
under the jurisdiction of the full committee, such as various 
low income tax credits, and many others involve other 
committees, complicating our efforts at better coordination.
    But we have to start somewhere. This hearing will give us a 
chance to review this array of programs, understand the 
challenges created by their sheer number, and review some of 
the State efforts to rationalize the services they provide and 
to navigate this complexity. That understanding will lay the 
groundwork for future efforts to modernize and streamline or, 
at the very least, better coordinate these programs to help 
more Americans achieve opportunity and upward mobility.
    So we certainly welcome our guests today and look forward 
to their testimony.
    I now am pleased to yield to my friend and the ranking 
member of the subcommittee, Mr. Doggett, for the purposes of 
making an opening statement.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    And welcome to all of our witnesses. Especially welcome the 
former chair of the committee, Mr. Davis with whom I worked on 
the data issues in a bipartisan way, and I think those issues 
are important, as well as coordination.
    I was encouraged to hear Speaker Ryan reiterate this 
weekend his interest in seeing reform in all of our programs 
that relate to poverty. I hope that can be a bipartisan effort. 
I have certainly attempted to make it such an effort, but it is 
far from certain that it can be.
    Making a bipartisan effort begins with recognizing what the 
history is on the programs within the jurisdiction of our 
committee, and it involves avoiding some of the old canards 
that reflected in the notice for this hearing that there are 80 
welfare programs gobbling up at a greater and greater pace over 
a trillion dollars of our taxpayer resources.
    The 80 programs referred to include things like the breast 
and cervical cancer early detection program, and Federal work-
study. The analysis of those programs by the Congressional 
Research Service indicates that the vast majority of them are 
directed toward helping the elderly and disabled, and that of 
all of the 80 programs that are referenced there, Temporary 
Assistance for Needy Families, which is the principal program 
that this Subcommittee and committee are concerned about, takes 
up a whole one percent of the amount devoted to what has been 
mislabeled as ``welfare.''
    I voted for the Welfare-to-Work Program in 1996, and if we 
are to evaluate it based on how many people it has gotten 
thrown off the welfare rolls, it is a tremendous success. If we 
are to evaluate it by the words that were spoken at the time by 
the Republican members of this Committee who considered its 
approval and signature by President Clinton to be a great 
victory, if we are to evaluate it by their words as to what the 
objectives were for this program, it has been a failure. It has 
not gotten people out of poverty at the rate it should have and 
into sustainable living wage jobs, and there is a good reason 
why that has not happened.
    It is not because of the laziness of poor people, but 
because we have not focused the resources necessary to 
accomplish the objectives of that Act, of the dollars that were 
being allocated in 1996 in real dollars for the purpose of 
Temporary Assistance for Needy Families or Aid to Families with 
Dependent Children, whatever at that time. The purchasing power 
of those dollars today is about a third less. We have not added 
more. We have reduced as our population has grown the amount of 
resources that are there.
    But an even more important factor than the total amount of 
resources, is how those resources have been used by the States. 
The suggestion that Speaker Ryan, in the days I served with him 
on the Budget Committee and in this Committee, is that if we 
block grant more monies to the States we will get better 
results, and we will end that confusing polka dot graphic that 
we just saw, and the States can figure it all out, and 
everything will be better.
    Well, the Temporary Assistant for Needy Families Program 
does not offer hopeful evidence that that will be the case. In 
2014, the States were using eight percent of their Temporary 
Assistance for Needy family funds on work related activities. 
The purpose of the legislation, according to the legislation 
itself, was to end the dependence on government benefits by 
promoting job preparation and work.
    Our colleagues here emphasized the goal was to train 
people, to provide them child care, to get them into the 
workforce. That has not been what has occurred here. In fact, 
we have had a great welfare program that the Temporary 
Assistance for Needy families has promoted, but it has been 
welfare for States that did not want to use this money for the 
core purposes for which this Congress intended on a bipartisan 
basis to do, but to use it for other purposes, mainly to fill 
State budget gaps for anything that pertained to social 
services.
    Some of those dollars may have been spent on appropriate 
and worthy programs, but they do not relate to the core 
purposes of TANF, which is to get people from poverty into the 
workforce. When you look at the dollars allocated for child 
care by the States, when you look at the limitations that are 
in the Act but what the States have done as far as education, 
it is just not satisfactory.
    Nearly half of the States have no work participation 
standard because of the case load reduction credit. I hope when 
we look at this Act we consider that and that we cannot solve 
the problems particularly of child poverty in this country by 
simply throwing words at it. We do not want to throw dollars at 
it. We want to see them better coordinated, but we have to have 
State partners that are focused on the core purposes of this 
Act, which is to get people out of poverty into the workforce, 
setting an example for their children and providing a better 
future.
    And I yield back.
    Chairman BOUSTANY. I thank the gentleman for his statement.
    Without objection, each member will have the opportunity to 
submit a written statement and have it included in the record 
at this point.
    I want to remind our witnesses who are here today to limit 
their oral testimony to five minutes. We have your written 
testimony and without objection your full witness testimony 
will be made part of the permanent record.
    This morning our panel is a very distinguished panel. We 
will be hearing from:
    Geoff Davis, former Member of Congress, a colleague of ours 
and now with Republic consulting, LLC.
    Maura Corrigan, Visiting Fellow, American Enterprise 
Institute.
    Nick Lyon, Director, Michigan Department of Health and 
Human Services.
    Robert Greenstein, President, Center on Budget and Policy 
Priorities.
    And Scott Sanders, Executive Director, National Association 
of State Workforce Agencies.
    So at this time, it is my pleasure to welcome back our 
former colleague, the distinguished former chairman of this 
Subcommittee, Geoff Davis, my friend.
    Geoff, we really appreciate you being here to offer your 
unique perspective on these issues, and you may proceed with 
your testimony.

   STATEMENT OF GEOFF DAVIS, A MEMBER OF CONGRESS (RETIRED), 
                    REPUBLIC CONSULTING, LLC

    Mr. DAVIS. Thank you, Mr. Chairman.
    Chairman Boustany, Ranking Member Doggett, and all my 
friends on both sides of the dais, thank you for the invitation 
to join you today to discuss ways in which we can better 
coordinate the current web of the more than 80 welfare 
programs.
    As someone who grew up in a challenging environment and 
managed to climb out of it by the grace of God, I commend your 
ongoing efforts to improve the quality and processes in these 
programs because, done correctly, they can have a great, 
positive influence on the lives of those in need.
    I was first introduced to improving complex processes and 
systems of systems during my time in the Army. After my active 
service, I worked in business operations and eventually led 
professional services teams that focused on process improvement 
and implementing large enterprise resource planning and 
customer relationship management systems, as well as their 
associated analytics and performance monitoring tools.
    While we worked for companies ranging from the Fortune 500 
down to small, single site facilities, the way to improve an 
operation was always the same: minimize complexity to maximize 
effectiveness.
    Process improvement is a continual effort, indeed, a way of 
thinking. Each small step, each constraint removed allows 
better use of time and resources. The outcomes are always 
increased capacity to deliver products and service, greater 
customer satisfaction, earlier detection of problems, and money 
saved.
    When I became chairman of the subcommittee in 2011, I 
endeavored to apply my real world experience in processes and 
systems to the programs within the subcommittee's jurisdiction, 
and I am happy to see that current members are continuing these 
efforts.
    Today all major companies across all industries use 
integrated, real time data and analytics to provide better 
customer service, save money, and improve their products. Large 
companies typically use what is called a data warehouse, which 
can be physical or cloud-based. Well run systems maintain only 
one record on a person or a product throughout that system. All 
users of that record draw from and update that single source to 
avoid errors and duplication.
    This standardized record system is called a logical data 
model and forms the foundation for accurate and precise 
decision information. Admittedly, the private sector companies 
often are not faced with some of the constraints that we find 
when we are viewing the 80-plus welfare programs that are in 
existence today, but I believe there are many lessons that we 
can learn from private sector efficiencies.
    When I had the honor of being part of this Human Resources 
team, I was proud of our achievements in the space of data 
standardization for some of these programs. Ranking Member 
Doggett and I made a conscious effort to review and improve 
H.R. programs from a process perspective, not from an 
ideological perspective.
    Everyone on the subcommittee genuinely wanted to make these 
programs work better for those in need. There were many places 
where we could have started, but getting better and more 
streamlined data seemed to be the biggest need and the best 
first step.
    After multiple hearings and meetings with input from all 
sides, Ranking Member Doggett and I introduced the Standard 
DATA Act, a bill to require the development of common standards 
for data and information sharing program by program. Together 
we incorporated this concept into the Child and Family Services 
Improvement and Innovation Act, which was signed by President 
Obama in September of 2011. The idea was also later applied to 
the unemployment insurance program, TANF, and SNAP, among 
others.
    I always refer to the Standard DATA Act as the most 
important law you have never heard of. After those achievements 
in 2011 and 2012, another bill known as the DATA Act was signed 
into law in 2014. This moved the ball even further toward an 
open or shared data environment for the whole of government.
    Before I close, I want to commend the Departments of Health 
and Human Services and Labor for their ongoing efforts to 
implement these statutes. Their success in this area will lead 
to more transparent and effective processes, which will serve 
more clients, reduce response times, increase agency capacity, 
and ultimately assist those in need on their climb out of 
poverty.
    Thank you for the privilege of joining you this morning. I 
yield back.
    [The prepared statement of Mr. Davis follows:]
    
                                 
                                 
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
    Chairman BOUSTANY. Thank you, Geoff, and thank you for your 
profound contribution on this Subcommittee and the work you did 
working with Ranking Member Doggett. It really advanced things, 
and we are deeply appreciative, and we hope to build on what 
you have accomplished.
    Next we are happy to have Ms. Corrigan here.
    You may proceed with your testimony. Please turn on your 
mike.

    STATEMENT OF MAURA CORRIGAN, VISITING FELLOW, AMERICAN 
                     ENTERPRISE INSTITUTION

    Ms. CORRIGAN. Good morning, and thanks so much for the 
chance to testify before you this morning.
    I am Maura Corrigan, a Visiting Fellow at AEI in Poverty 
Studies, formerly head of Human Services in Michigan under 
Governor Rick Snyder, and prior to that 19 years as an 
appellate judge in the State of Michigan. I left the Supreme 
Court in order to run Human Services.
    My message this morning is simple, two things that need to 
happen in this Congress: one, simplify the maze of programs. I 
once told my children that I want on my tombstone ``Tear down 
this silo.'' The programs that we have are too siloed. We are 
stuck in the prescriptions of those programs instead of getting 
at the bottom line. Your welfare state chart shows this.
    We need to consolidate and coordinate these programs in 
service of one goal: that every American has a chance at the 
American dream, that everyone can move out of poverty. The 
current maze of programs we have poses barriers to this for 
all.
    The second thing I think is crucial is that we coordinate 
the messaging in all of these programs. First of all, the 
people must believe they can move up, that they have hope. The 
second is a three-word mantra that I have stolen from Great 
Britain when they reformed their disability system, three 
little words: ``better off working.'' That ought to be at the 
heart of every safety net program.
    All of the committee, I believe, thinks this, but in the 
programs I administered only two out of nearly 80 had any sort 
of a work expectation written into the law.
    People conform their expectations to the law, and this was 
not present in the law I administered. Clients want to work and 
things get in the way of them being able to do that.
    The second thing we need to tell the truth about is family 
formation. We should not impose our values on others. That is 
so, but on the left and on the right, we understand that 
children do best when they're raised by two married, involved 
parents. That is true in all the studies, and I am not aware of 
any social safety net program that conveys this message, 
despite our knowledge of these statistics.
    These are central or root causes underlying intergeneration 
poverty, we need to get at these: better off working; two is 
better than one; and, yes, you can move up.
    The complexity of the program I outline in my testimony, 
you know about benefit cliffs. You know about tax consequences 
that affect people that are attempting to work. I wanted to lay 
out for you my job at AEI entails being a liaison with State 
secretaries, and several of them have said to me that we need 
to change the nature of our workforces in human services 
because of the significant mental health issues that are 
affecting the clients that we see who are in poverty. There is 
depression; there is despair, and social workers are not 
adequately trained to deal with what they are seeing and the 
problems of intergenerational poverty.
    It is not the clients who are to blame. It is the policies 
themselves that need to be reformed. In my testimony I gave you 
examples of three Michigan programs that I think were important 
in effecting change in our State. I wanted to move social 
workers out of offices and to go where the problems were, and 
we took social workers mobile. We moved them into schools so 
schools could be the community hubs. We sent social workers to 
workplaces, to support poor people who were going to work every 
day, and these are laid out in my testimony, and I invite any 
comments on those.
    I firmly believe in the Opportunity Grant proposal conveyed 
by then Chair Ryan last year because what it would do would 
collapse 11 programs into one, integrate programs together, and 
permit States the opportunity to have holistic solutions, local 
solutions.
    Our States in this great American dream are a laboratory 
for experimentation. We understand that. We have the ability to 
innovate. States can do it.
    I believe the war on poverty is capable of being won, and 
that if we simplify what we are doing in these programs, like I 
learned about public speaking, K.I.S.S.: keep it simple, 
stupid. If we can simplify what we are doing with the maze of 
programs and if we coordinate the message, better off working, 
two is better than one, then we have hope.
    Thank you very much for your attention this morning.
    [The prepared statement of Ms. Corrigan follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
   
    Chairman BOUSTANY. We thank you for your testimony.
    Mr. Lyon, you may proceed.

STATEMENT OF NICK LYON, DIRECTOR, MICHIGAN DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Mr. LYON. Thank you, Chairman Boustany, Ranking Member 
Doggett, and other Members of the Committee. I appreciate the 
opportunity to testify in front of you here today, and I 
appreciate your interest in this issue.
    I come to share with you the success of what we are trying 
to do under Governor Snyder in Michigan. On January 1st, 2015, 
he addressed this problem by creating the concept of the 
``River of Opportunity.'' The goal in this was to address 
multiple programs, cross-purpose, terribly complex, difficult 
to navigate, and certainly at times hindered the success of 
those we were trying to serve.
    What we found is that when people suffer a temporary 
setback, they would fall off the River of Opportunity, and the 
purpose of our programs is to bring them back onto the river so 
that they could be successful.
    Our reorganization focused on several key issues. It 
focused first on people, not program; root causes, not 
symptoms; results, not process; community. Government cannot do 
this alone. It has to be local solutions and local effort, and 
outcomes.
    The governor operationalized this by consolidating the 
Departments of Human Services, former Director Corrigan's 
department and my department, the Department of Community 
Health, so that we have several Federal programs around Health 
and Human Services. It is a $25 billion budget, 14,000 
employees with a presence in every county.
    We built much of what we have done on the successes of what 
you will see both in Director Corrigan's testimony and my 
testimony, the Pathways to Potential Employer Resource 
Networks. It was really about serving the people directly.
    Our vision is improved health, safety, and self-
sufficiency, and we focus this on people in three different 
groups: first, children. Obviously children need to be in the 
situation where they can best learn, and to do that they have 
to be safe and they have to be healthy.
    Individuals with intellectual or developmental 
disabilities, we want them to be able to live and work in their 
most independent setting possible as they so choose, and 
adults. We want to lead them back toward the path to self-
sufficiency and increase their employment options moving 
forward.
    Obviously within my testimony we have a list of the 
federally funded programs. The United States Department of 
Health and Human Services has 150 distinct funding sources that 
come through our department; the United States Department of 
Agriculture, 14; Housing and Urban Development, 13; those are 
just to name a few State departments.
    There are 223 distinct Federal funding sources, all with 
their different program requirements, all with their different 
stakeholders, all with potentially different definitions of 
income. This makes it difficult for us to navigate as leaders, 
as managers of these programs. It makes it difficult for our 
case workers to navigate. Think about how difficult it is for 
that person who walks in the door for the first time 
potentially in their greatest time of need and how difficult it 
is for them to navigate.
    So our solution is moving towards an integrated service 
delivery system. It is going to be person centered, goal based. 
We are going to move case workers from the concept of checking 
off boxes and working all day in the IT system to really go out 
and be social workers again and really be success coaches. We 
want them working with people directly and working with 
families directly rather than checking a box.
    That is a first real significant opportunity. The second 
piece I see in this, and this is probably because I come from 
the health side, is I really believe in the concept of 
preventive services. We need to do what we can to move ahead of 
these situations that happen.
    Our system is reactive in a way. We react once something 
bad happens, many times in the most expensive and intrusive 
fashion possible, and we really need to start moving towards a 
way that is preventive in nature. This applies in health, but 
also applies with families. Think about how much better off we 
could be if we identified a potential family at risk of abuse 
and neglect and help that parent or parents succeed with their 
children rather than reacting to a situation that might have 
occurred to avoid potentially foster care involvement, court 
involvement, prosecutors, et cetera, and not only is the family 
better off; the child is better off as well.
    So as you are thinking through this, and we have done a lot 
of the thinking here on anything that we can do to be helpful, 
the things that really come into play is increased Federal 
flexibility. We have to reduce the complexity. It is just too 
complex for our system to navigate as a whole.
    Outcome based payment models that include incentives for 
States to reach outcomes. Ranking Member Doggett certainly 
mentioned that sometimes we focus on process rather than 
metrics, and I believe that we have to fund preventive services 
and focus on goals.
    Thank you.
    [The prepared statement of Mr. Lyon follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
   
    Chairman BOUSTANY. We thank you for your testimony.
    Mr. Greenstein, you may proceed with your testimony.

STATEMENT OF ROBERT GREENSTEIN, PRESIDENT, CENTER ON BUDGET AND 
                       POLICY PRIORITIES

    Mr. GREENSTEIN. Thank you very much.
    My testimony today basically makes three points. The first, 
safety net programs that assist people with low or moderate 
incomes can and should be improved, but they are far more 
effective than is often understood. If we use the data that 
measure poverty in the way most analysts believe we should, 
that is, counting assistance like SNAP and the earned income 
credit rather than ignoring them, the census data show that the 
safety net--could I have my first slide please--that the safety 
net cuts poverty nearly in half, the census data showing that 
it lifted 38 million Americans out of poverty last year.
    And these figures which you see in the slide from the 
Census Bureau's supplemental poverty measure actually 
understate the safety net's effectiveness because they rely on 
census data that substantially undercount the number of 
households getting benefits like SNAP.
    The Urban Institute has developed a highly regarded, widely 
used model to adjust for the underreporting of benefits and--
second slide please--once the corrections are done, we see that 
the safety net cuts poverty a little more than in half.
    Of particular note, in recent years advances in poverty 
research have enabled researchers to track children over 
several decades as they grow into adulthood, and what we have 
learned is that basic income support for poor families, 
including things like income credit, rental vouchers, things of 
the sort, can have significant long-term, positive effects on 
children. The research has now linked more adequate income 
support for poor children in early childhood to increased test 
scores and educational attainment in school, and then in turn 
to increased employment and earnings in adulthood.
    My second point involves cost. The costs of these programs 
have grown, but it is overwhelmingly due to the Great Recession 
and the sluggish recovery, and the rise of health care costs 
throughout the U.S. health care system, also pushed up by the 
aging of the population, and of course efforts to cover more of 
the uninsured.
    So sometimes people assume that the universe of low income 
programs, low income programs in general are exploding in cost. 
The hard budget data show that is not the case.
    Next slide, please.
    Once we look at the cost of this universe of programs 
outside health care, we see that while the cost went up in the 
recession, it is now declining. Within a few years, in will be 
below its average cost as a share of GDP over the 40 years from 
1975 through 2014, and by early in the next decade, we will be 
below the prior 40-year average.
    The same is true if you look at spending on low income 
programs as a share of the Federal budget, up in the recession, 
now dropping. Projection: within a few years it will be below 
its average over the previous four decades.
    Final point on coordination, which should certainly be 
improved. Various States have been making important 
improvements in this area in recent years, including through 
the work support strategies demonstration that is using 
innovative ways to make programs like SNAP, Medicaid, and child 
care more integrated and easier to navigate.
    And Congress took an important step last year when it 
passed the Workforce Innovation and Opportunity Act, which has 
promise of increasing coordination between job training and 
TANF. Certain reforms in TANF could further that coordination.
    But there is an obstacle here, and part of the obstacle is 
that the ability to have closer coordination is constrained by 
the limited TANF resources that are used for work activities. 
The latest data for 2014 show that States, in general, were 
spending only eight percent of TANF and State maintenance of 
effort funds on work activities in 2014, 16 percent in child 
care, and 26 percent on basic assistance, but half of the funds 
were not going for any of those purposes.
    Now, in the coordination area, the one thing I would 
recommend against is eliminating key safety net programs like 
SNAP or rental vouchers and merging their funding into mega 
block grants. That would likely result in increased poverty and 
hardship over time for three reasons.
    First, it would entail converting programs like SNAP that 
respond automatically in recessions when need increases into 
fixed amounts that do not respond to the changes in the economy 
and poverty.
    Secondly, history shows that when policy makers consolidate 
programs into very broad block grants with very broad purposes, 
States substitute some of the Federal block grant dollars for 
State dollars previously being spent on that purpose. The GAO 
has documented that that occurred to some degree under TANF.
    Finally, when funds are merged into very broad block grants 
with very diffuse purposes, the outcomes get hard to measure, 
and this may contribute to funding decreases over time, the 
proof being in the pudding.
    We just completed an analysis of the 13 major health, human 
services and social services block grants created in recent 
decades. We found that in 11 of the 13 funding has been 
reduced, often a lot, since their creation, and if you just 
take 2000 to 2015, overall funding for the 13 block grants is 
down 28 percent in real terms, and these are for health and 
human and social services.
    Thank you.
    [The prepared statement of Mr. Greenstein follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    Chairman BOUSTANY. We thank you for your testimony.
    Mr. Sanders, you may now proceed.

   STATEMENT OF SCOTT SANDERS, EXECUTIVE DIRECTOR, NATIONAL 
            ASSOCIATION OF STATE WORKFORCE AGENCIES

    Mr. SANDERS. Thank you.
    Good morning, Chairman Boustany, Ranking Member Doggett, 
and Members of the Subcommittee. My name is Scott Sanders, and 
I have served as the Executive Director of the National 
Association of State Workforce Agencies, otherwise known as 
NASWA, for the past year.
    NASWA members are the publicly funded workforce agencies 
from 50 States, Washington, D.C., and two territories, and one 
of NASWA's strategic goals is to drive the national workforce 
agenda. NASWA members administer various combinations of 
critical programs, including the Workforce Innovation and 
Opportunity Act, or WIOA, employment services, training 
programs, unemployment insurance, vocational rehabilitation, 
local market data, and social service programs.
    Before joining the association, I served as Commissioner of 
the Indiana Department of Workforce Development, or DWD, which 
operated the workforce training programs under WIOA, UI, labor 
market data, and adult education programs. I greatly appreciate 
the opportunity to share some approaches States have initiated 
to better integrate programs that serve those in need and the 
challenges facing the States and the public workforce system.
    The enactment of WIOA presents a unique opportunity for the 
workforce system to partner with adult education and vocational 
rehabilitation, as well as many of the human service programs, 
such as SNAP and TANF. Hopefully this coordination and 
alignment of workforce programs yields better outcomes.
    I commend this Subcommittee in the draft TANF legislation 
for continuing the spirit, but do not underestimate the heavy 
lift this entails.
    Could I have my first slide, please?
    Over the past year NASWA has compiled information on the 
programs administered by each of our State members. As shown on 
the map here in kind of a teal-bluish green or the California 
color, 23 of the NASWA members administer programs funded by 
WIOA, UI, Wagner-Peyser, Trade Adjustment Act, labor market 
data, and reemployment of veterans. There are 14 agencies 
managing voc. rehabilitation, eight agencies coordinating adult 
education, and six workforce agencies having some role 
administering TANF.
    While Commissioner, I learned firsthand of the challenges 
at State level to coordinate our services. We constantly sought 
to improve our agency's relationship with economic development 
groups and educational providers. We were continually working 
within groups that had different geographic boundaries.
    If I could have my next slide, please.
    On this chart, although busy, the monitor reflects the 
State boundaries for eight different entities in Indiana and 
underscores the challenge that Indiana and many States face in 
trying to coordinate programs. The map in the upper left 
reflects the boundaries of the workforce system, which uses 
economic growth regions, but the boundaries for the social 
service agency that administers SNAP and TANF just below use 
different boundaries.
    In addition to the multiple jurisdictional boundaries, 
other issues, such as siloed legislative sources, regulatory 
guidelines, and funding streams further complicate the seamless 
delivery and coordination of services. Indiana has worked to 
overcome some of these boundaries and in 2011 moved adult 
education into DWD and recently began coordinating services 
with the social services agency.
    Other States have been moving in this direction. Louisiana 
combined rehabilitation services into their Workforce 
Commission and is preparing to launch a software platform that 
will handle multiple programs through one integrated system.
    Texas operates the TANF Program and will soon also 
administer the State's Vocational Rehabilitation Program.
    Ohio has one agency that administers its TANF and workforce 
programs, and Utah has created a plan to align and coordinate 
services to address intergenerational poverty. Some suggestions 
to take into consideration are increasing the flexibility in a 
TANF grant to include reemployment services; review Federal 
jurisdictions to determine whether that structure and oversight 
arrangement makes the most sense; align Federal reporting 
metrics for social service and workforce programs; and help 
States integrated disparate computer systems to provide 
accurate data; allow States to tailor programs and services to 
specific needs; create common data definitions; and reduce the 
funding uncertainty of programs which creates havoc for States 
trying to serve those in need.
    I also encourage the Federal departments that administer 
programs like SNAP and TANF to work in coordination with the 
Department of Labor and not to create separate training 
programs. For example, the Department of Agriculture announced 
last week a Center of Excellence for SNAP recipients to obtain 
employment and training skills. This is an important initiative 
that needs to be coordinated with the existing infrastructure 
of the workforce system so there is not just another siloed 
effort.
    In summary, we owe it to take steps towards a more 
coordinated workforce system. While there will be challenges in 
implementing, we always envisioned, this Committee has the 
opportunity in TANF and other reauthorizations to greatly 
increase the alignment of workforce programs under its 
jurisdiction to improve services for both job seekers and 
employers.
    Thank you for the opportunity to be with you today and for 
your interest in initiatives that help employ American workers, 
improve coordination amongst various programs, and help 
Americans achieve financial independence.
    [The prepared statement of Mr. Sanders follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Chairman BOUSTANY. We thank you for your testimony.
    I want to thank all of our witnesses for their testimony. 
This has been very helpful and very enlightening.
    We now enter a period of questions and answers. Each member 
has five minutes, and I will begin with mine.
    Geoff, again, welcome. It is good to see you. And before 
you came to Congress, you were engaged in work where you were 
helping businesses improve efficiency so that they provided 
goods and services to their customers in a more efficient, cost 
effective manner.
    If we could put the chart back up there that I mentioned 
earlier, so if a customer came to you with this kind of 
organizational chart, I know it is kind of putting you on the 
spot here because we are now revealing this really for the 
first time, but I think it achieves a purpose of demonstrating 
the complexity of this.
    How would you approach reforms? How would you tell that 
customer, ``All right. Look. We have got to organize this thing 
better, coordinate these programs better because there are 
inherent ways''?
    The individual who is trying to, you know, benefit from 
this is getting lost in the shuffle.
    Mr. DAVIS. Probably the first thing I would do is say 
remain calm looking at this.
    [Laughter.]
    Mr. DAVIS. But I can say candidly, having worked with some 
larger organizations, that chart is not that uncommon from the 
beginning place of some major American corporations in the late 
1980s and early 1990s.
    Moreover, our military after Goldwater-Nichols began a 
massive integration process improvement that ironically looked 
much like that.
    I think the first question is, and I put this in my written 
testimony, when you look at a process is not to react to 
symptoms, and many of the programs that are well intended by 
their sponsors, in fact, are reacting to symptoms without 
necessarily getting down to the root cause.
    So there are three things to do. First is as planning out 
what I think the process is, which is where oftentimes 
legislation goes. More importantly is to map a process so that 
you can find out what it actually is, and once you know what it 
is, then you can organize your effort to change it.
    I think in general, following the mantra I shared earlier 
about to maximize effectiveness you have to minimize 
complexity, usually the first way to address this in a large 
organization in a way we would approach it is getting into 
common groupings, and especially if they were like the regional 
problem that we have shown in Indiana, is put all organizations 
under one region (a), but the second piece would be to have 
groupings based on families of common activities or common 
customers.
    For example, you could look at children, parents, 
unemployment, education. Again, I am just shooting from the hip 
having just seen this for the first time.
    But the other thing that I would say is that you want to 
move towards an idea of integrating the processes that are, in 
fact, helping oftentimes the same customer on multiple programs 
to make sure nobody falls through the cracks, and what I would 
do in this case is start everybody off on a common single data 
model with the idea that eventually these families can be 
merged into one what is called a logical data model or a single 
customer record.
    And for cutting edge businesses that have gone through this 
transition, that is the common model where now with 99.99 
percent accuracy they can manage and also provide predictive 
analytics in modeling on billions of stock keeping units and 
hundreds of millions of customers, as well as their employees, 
and that would be the beginning point to take it step by step 
through a pilot process.
    Chairman BOUSTANY. I really appreciate that.
    Mr. Lyon, you were nodding your head earlier affirmatively, 
and I think in your testimony you mentioned moving certain 
services in house into the public school system, for instance, 
to try to streamline and better serve those who these programs 
are intended to benefit.
    Do you want to comment further on this and the complexity 
of this chart?
    Mr. LYON. I think the complexity of the chart, even when we 
look at subcomponents of what we do at the department, we will 
find charts that are similar to this, and my comment would be 
much of what we do is based upon the Federal guidelines and 
Federal requirements. So it will be difficult for us to 
simplify until we simplify at the Federal level.
    I was nodding quite a bit in agreement because his focus 
went right back to people. You focus on children. You focus on, 
you know, common needs, and that is exactly what we looked at 
when we did our reorganization. I think that is really what we 
need to look at going forward.
    And it is complex, but we have a great opportunity, and if 
we take a step back, we certainly have a chance to do this.
    On the data, the one thing I would add is information 
technology is extremely complex, and we have a data warehouse 
for health systems. We have a data warehouse for our human 
services, and we are bringing those together, and we are at the 
forefront of really being able to do something cool with data 
analytics, to really start assessing and seeing what needs are 
and doing some predictive analysis that would help us implement 
much better systems.
    But until we have a commonality that defines the backbone 
of all of these programs, it is going to be very difficult for 
States to get there.
    Chairman BOUSTANY. I thank you.
    In comparing both Ms. Corrigan and your testimony and some 
brief aphorisms or statements you made, you know, better off 
working, two better than one, people, not programs, local 
solutions, I was struck by the juxtaposition of this chart, and 
then at the point of implementation in States, you know, these 
types of goals.
    So what are we losing by operating this type of Federal 
system and, of course, the interaction with States? Could the 
two of you comment on that?
    What are we losing in all of this?
    Ms. CORRIGAN. I believe that what we are losing on this is 
human potential, that we waste human potential of our 
impoverished clients when we do not ask the bottom line 
questions. Are you getting to self-sufficiency? Is this program 
really working? What are the metrics?
    If you take the questions that TANF asks, for example, I 
know when I was State director, my boss, Governor Snyder, was 
asking, ``Well, how many people are really getting a job? And 
how many people are holding down that job?'' and that was not a 
question that we were being asked in the questions that we 
answered for TANF.
    We need to figure out what the bottom line questions are 
that will take advantage of the wonderful gifts of every 
precious person in our country.
    Chairman BOUSTANY. That takes it right back to people.
    And, Geoff, do you want to comment?
    Mr. DAVIS. Just to put this at a practical level, I think 
if we step back from the numbers for a moment and look at what 
the recipient has to do to go through compliance with the 
various programs and the importance of this integration, if I 
go back to the model, I grew up in with a single mom who has to 
work or is trying to get an education in order to work, 
oftentimes coordinating something as simple as a medical 
appointment for a child if they do not have a car involves a 
great deal of complexity, where you have agencies that are not 
necessarily communicating with each other, and a ping pong 
effect can take place.
    I saw this just last week with a friend from church that my 
wife was helping, and if there had not been an outside person 
to assist with this person going through her needs, in fact, 
she would have had significant problems and would not have been 
able to get what she wanted to achieve done.
    In this case by integrating the records, the different 
service providers would have a common set of information and 
could simply be triggered to be alerted of a need with an 
individual to respond more promptly. It makes it more efficient 
in the long run in meeting those needs.
    Chairman BOUSTANY. Thank you, Geoff.
    Mr. Lyon, did you want to make a brief comment?
    Mr. LYON. Yes. I think the one thing we really lose, I 
think there are two things: connectivity with the individuals 
and the families. With the complex system, we are not spending 
the amount of time we should with families. We are worried more 
about process.
    And then the overarching goals, as Director Corrigan said, 
what are we measuring? What are we really shooting for? What is 
the end game? How are we really defining success?
    And if it is a check box on a screen and not employment, 
the check box on a screen and not a child who can truly learn 
in school, we are really foregoing a great opportunity.
    Chairman BOUSTANY. Thank you.
    I now yield to the ranking member, Mr. Doggett.
    Mr. DOGGETT. Thank you very much, Mr. Chairman, and to each 
of our witnesses for your testimony.
    I find the polka dot chart to be very interesting. I think 
it includes many programs which have little to do with one 
another, from the lower right-hand corner on Pell Grants, a key 
to educational opportunity in this country, to one near the 
middle, the Ryan-White Act and the opportunities in housing for 
people with AIDS, which addresses another really serious 
problem in the country, to the breast and cervical cancer 
program.
    Until you get to the one dot and only one dot out of the 
entire chart that deals with the program that is within the 
jurisdiction of this Subcommittee, which will expire again, 
having gone from one little stop to the next, next month. And 
it seems to me that that one percent is where we need to be 
focusing because I am not in favor, as the Republican budget 
did, of cutting back Pell Grant opportunities and educational 
opportunities in this country, nor in some of these other vital 
health programs, which would not be on the chart but for the 
failure of the States to address these very dire needs on their 
own part. And it has been that failure that produced these 
programs.
    Having said that, I agree there needs to be better 
coordination, and when I hear Ms. Corrigan talk about two 
siloed programs, I agree. When I hear about coordination and 
the need for better coordination that Mr. Lyon voices, I agree.
    What I do not agree with is the suggestion that the 
solution is to collapse programs into one, either to collapse 
all of this chart into one or, as Ms. Corrigan suggested, let 
us collapse 11 into one.
    The use of the term ``collapse'' is exactly what I am 
concerned about, that it will collapse opportunity for those 
people who depend on the program.
    And I think actually, and Texas may be an even better 
example of this, but Michigan provides an example of what I am 
concerned about as it relates to the one dot up there that we 
are concerned with most immediately, and that is TANF. Because 
in 2007, according to the data I have seen, in Michigan, a 
third of the Federal dollars that flowed to Michigan under the 
Temporary Assistance for Needy Families Program were being used 
by the State for the core purposes of TANF to get people to 
work.
    By the time that we got to 2011, Ms. Corrigan, in your 
service there it was down to ten percent, and now under Mr. 
Lyon, it is down to 6.7 percent.
    You may have used that money with flexibility for other 
purposes that are very worthwhile, but my concern is that the 
Federal dollars we allocated for getting people from poverty to 
work are not being used for that purpose, whether it is through 
a workforce commission or something else. Then we are not 
fulfilling the goals of this program, particularly when the 
overall dollars fall in real purchasing power.
    Let me ask you, Mr. Greenstein: is the reason that we 
continue to have so many poor people in this country with 
children who are not into gainful, long-term employment related 
to the fact that we have got 80 dots up there, 80 different 
uncoordinated programs?
    Is it lack of coordination that is causing this problem?
    Mr. GREENSTEIN. Well, I think we can do better with better 
coordination, and we really should move in that direction, but 
I do not think that is the sole problem or probably even the 
main problem.
    We have this growing research showing how important 
adequate support for poor young children is; that when families 
are in deep poverty, there tends to be a higher rate of toxic 
stress, which research is now suggesting affects brain 
development, and we see differences in brain development even 
by age two and more by age five, and we find that when the 
support is more adequate, and we are talking about basic 
support, cash assistance, SNAP, food stamps, purchasing power, 
rental assistance so the family is not on the verge of 
homelessness; that these really produce surprisingly large 
results.
    So I think we have to do more adequately on that front. On 
the coordination front, I just think it is important to think 
about the fact that coordination can be significantly improved 
without collapsing all of the programs, without losing the 
mechanism of SNAP that responds to need.
    This is what this work support strategies demonstration has 
done. It is a mix of red and blue States. They found they had 
more flexibility to integrate programs than they thought 
because the Federal rules are complicated. You have to have 
cross-program expertise.
    They have come up with recommendations for further 
flexibility the Federal agencies should provide, and they 
should, but we can make progress there without in a sense 
throwing the baby out with the bath water and losing some of 
the fundamental parts of the safety net that are most important 
for poor children's development.
    Mr. DOGGETT. Thank you.
    Chairman BOUSTANY. The gentleman's time has expired.
    I just want to make clear that nobody is suggesting we just 
collapse all of this. This is just depicting the complexity, 
and I think everybody would agree that this complexity does not 
help the situation going forward. We need to clean it up and 
coordinate these programs better in order to serve the 
individuals most in need.
    With that I now yield to Mr. Meehan.
    Mr. MEEHAN. Thank you, Mr. Chairman.
    I thank this distinguished panel for all of your efforts. 
Congressman, great to see you back here.
    I am struck in a positive way because I think you are all 
talking as if you see something here, and we are closer to 
making progress. If we start with the very premise Mr. 
Greenstein discussed that there is a definable benefit in the 
safety net program, so we know we are at a place.
    What seems to be is that from this point forward we have 
some disconnects for a variety of reasons, not the least of 
which are for various reasons this bureaucracy fails to reach 
out and work effectively.
    Ms. Corrigan and Mr. Lyon, how have your efforts to work 
with the individual actually produced successes that have made 
a difference, that cut across this territorial maze, the silos, 
so to speak, that seem to be an impediment?
    And, frankly, we have resources out there. A lot of it 
suggests we are not trying to consolidate. We are trying to 
align them in a more effective fashion.
    This following the individual, how do you do it? How do you 
take those resources and make it work, Ms. Corrigan and Mr. 
Lyon?
    Mr. LYON. Okay. So I think collaboration and alignment are 
very important. I am not going to sit and suggest what the 
final solution would be or what sort of collapsing should or 
should not occur.
    I think a couple of things we could point to, and I am 
going to defer one to Director Corrigan because it actually 
happened under her watch is Pathways to Potential. So I will 
let her talk about that.
    But one great example that we have is children who come 
into our foster care system. Generally, if you think about that 
situation, something traumatic has occurred. It is potentially 
the abuse and neglect situation, potentially moving out of the 
household, and what can we do to work with them through our 
behavioral health system, which is funded under Health and 
Human Services under SAMHSA? And what can we do under those 
qualifications?
    And then we work on our managed care organizations, and 
they are under CMS for managed care, and by being aligned and 
by focusing on what the person is, we start looking at 
outcomes. You know, how are they responding to care, not how 
quickly are we just seeing them, for example. And I think that 
is a huge success.
    Ms. CORRIGAN. The Pathways to Potential Program that 
Michigan started in its public schools began in 2012 in 21 
pilot schools. The problem that we had was school attendance 
for children. We had a huge issue across the State of chronic 
absenteeism.
    In the Pathway to schools, when we sent social workers from 
the Department of Human Services into the schools, they worked 
on barrier reduction to get children to school, to try to 
figure out why is this child not coming to school, not to 
create a child protection case, but to figure out how to solve 
the problem.
    And in the three years the program has been in operation 
now in more than 200 impoverished areas, there has been a 33 
percent reduction in chronic absenteeism in the Pathways 
schools.
    Part of the issues is that the system is so complicated 
that the school's bureaucracy does not understand the Human 
Services bureaucracy. So a school principal or a teacher does 
not understand what needs to happen.
    Having the social worker on site can translate what needs 
to occur and help the problem to get solved. The same thing is 
true in the employer setting. In the Employer Resource 
Networks, a huge number of people in poverty are working, 
attempting to work, but employers lose a lot of single moms 
because they have various issues affecting them, like 
transportation or child care.
    So you send the social worker into the employer and help to 
solve the problems, again, translating for the employer. The HR 
community does not understand how social services works either. 
They do not know transportation resources. They do not know 
child care resources. You send that social worker from employer 
to employer to employer, and there is a huge benefit to 
employers in worker retention. They do not have staff turnover 
because they can stabilize the individual, frequently a single 
mother with issues. They can stabilize so that that person can 
get to work.
    And, again, in my testimony it shows huge effects, so much 
so that now in Michigan, employers are paying for social 
workers for this function out of private money.
    Mr. MEEHAN. Can you address just one other issue in my 
remaining time? You discussed something about people who are 
coming suffering from depression and other kinds of issues. How 
do we catch those people on the cusp who have the potential?
    This is a prevention model, I suspect, Mr. Lyon, that you 
have been discussing. How do we effectively make sure we do not 
lose them in that context, to get them back into a place where 
they can contribute?
    Ms. CORRIGAN. I believe that the law has to have 
expectations in it of performance on the part of the 
individuals; that when you give an individual merely a check 
and that is all that is expected of them in various programs, 
that that gives them a certain self-image, the client a certain 
self-image that I have small dreams. I have puny dreams, and I 
settle for this, and this is all, and that crosses generations.
    And to me if we change the expectations in our laws, we 
would see a change in behavior, but right now we have 
generational poverty and generational despair and depression, 
which is what my colleagues are seeing.
    Mr. LYON. And the one thing I would say from a system 
standpoint is, you know, the colocation, the ability of the 
CMH, community mental health system or behavioral health system 
or substitute system to be able to interact more effectively 
with our case workers and our social workers, absolutely 
integral in catching people before they go off any sort of 
personal cliff, whether it is substance use or behavioral.
    Mr. MEEHAN. Thank you, Mr. Chairman. I yield back. Thank 
you.
    Chairman BOUSTANY. Mr. Holding, you are recognized.
    Mr. HOLDING. Congressman Davis, it is always a pleasure to 
see you. I wanted to follow up on one thing that you said in 
your testimony. You stated that the Child and Family Services 
Improvement and Innovation Act and the DATA Act were signed 
into law, ensured taxpayer dollars being well spent, and 
welfare programs are actually serving those in need, and I 
wanted to get your input as to whether these laws are actually 
achieving the goal that we intended.
    Mr. DAVIS. I think any implementation in a large Federal 
organization is a time consuming process. I would defer to 
current data. I understand there are some technical fixes, in 
particular, in the Department of Health and Human Services, 
that probably need to be done to expedite this further.
    On a wider standpoint, the reason that I think that it is a 
good first step and certainly needs to be carried on, going 
back to the other commentary, is that you have false 
jurisdictions, if you will, among different agencies, and I 
think that thus led to the complexity of the map, where, in 
fact, an individual is dealing with oftentimes a housing issue, 
secondary effects with an education issue for themselves or a 
child, health, job or UI, you know, children support issues, 
maybe even finding a deadbeat dad, for that matter, and in this 
cash my wish is that two things could happen.
    One, we could move to a more expedited implementation of 
this, but second of all, ultimately get to a single record and 
maybe even a single payment for the individual akin to what is 
being done in the private sector right now in very large 
organizations to improve the ability to serve and really to 
customize the need to that individual client because every 
family is different.
    The best thing that I found in my mind is where you can 
empower local control of that front line service provider with 
that client and you have a system that's clearly accountable 
back to that record from Federal oversight would be very 
efficient.
    Mr. HOLDING. Right. If we could put this chart back up, 
which is just phenomenal, Ms. Corrigan, I think you've got the 
quote of the day, that ``tear down this silo,'' but you know, 
as Mr. Gorbachev, ``tear down this wall,'' who do we address 
the ``tear down this silo'' to?
    When you look at this myriad of programs, you recognize 
what the issues are and you can come up with kind of a 
generality of tear down this silo or go to a single record 
system, but where do you start?
    I mean, this looks like that game--what is the game with 
all the sticks where you put the sticks up? Jenga, something 
like that. So which one do you pull out or where do you start? 
Where do you inject the antidote here which will start to 
change the whole system?
    I will let Ms. Corrigan address that first.
    Ms. CORRIGAN. I do not begin to know the answer to that 
question in terms of simplifying the maze, but I would suggest 
that perhaps it is possible to do something akin to what 
happened pre-TANF, in other words, to give States the authority 
to experiment, to figure out how do we do it.
    As in the Farm Bill pilots on work that went through the 
Department of Agriculture last year, could we not ask States 
how would you simplify and see what is the most effective 
program in getting at these issues?
    Mr. HOLDING. Mr. Davis, do you want to take a stab at this?
    Mr. DAVIS. I think you start and you identify what the 
symptoms are and move from there. I think from an information 
perspective, you have common factors that are affecting every 
individual, and front line pilots become very important in 
this.
    And as long as we are capturing, and the reason I mentioned 
the logical data model versus the conventional systems, you 
know, in many cases what is governing our programs right now 
was developed in the 1960s on technology that is, frankly, in 
the Stone Age compared to today.
    And where I would take this is into a model where you could 
merge these records, but base it on empowering people on the 
front line to gather that information because the slightest 
amount of integration, particularly on a local level, could 
create a tremendous amount of improvement and change.
    For example, I got with a group of social workers that 
became the impetus to when Ranking Member Doggett and I 
introduced the Standard DATA Act and asked them this question 
in a kind of brainstorming session: how would it improve your 
client's life if we could look at an integrated system and find 
out that the deadbeat dad has signed up for a hunting license a 
la what Michigan has done or was registering a new BMW car in 
Ohio but neglecting to pay their financial obligation to their 
family?
    And their response was it would be revolutionary because it 
would do two things. It would reduce the pressure on the 
individual by more immediately getting the cash, but more 
importantly for the social worker, it would take steps out of 
that process.
    Imagine if you had to do your job and, well, look at it 
this way. You have to walk a quarter of a mile every time you 
go to vote. How efficient would your day be if you could vote 
at your desk?
    And I am not suggesting amending the Constitution, but 
removing those steps from the process buys more time for 
capacity to perform, and I think looking at these integrations 
the right way helps these folks on the front line do their job 
and, in fact, improves the lives of the person they are trying 
to help.
    Mr. HOLDING. Thank you.
    Thank you, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentlemen.
    Mr. Davis, you are recognized for five minutes.
    Mr. DAVIS of Illinois. Thank you, Mr. Chairman. I want to 
thank you for calling this hearing, and I certainly want to 
appreciate all of our witnesses, and it is, indeed, good to see 
the former chairman of this Committee, my namesake. It was a 
pleasure working with you then and it is good to see you now.
    Mr. Chairman, I must confess that what we are calling 
``welfare programs'' gives me a bit of consternation, and I 
want to appreciate Mr. Greenstein during his opening where he 
used the terminology ``safety net'' and ``low income.'' I 
appreciate that kind of terminology.
    It is my feeling that being prepared and having the 
opportunity to work, to get a job with adequate wages, that 
these are excellent approaches to moving people out of poverty.
    I also agree that family structure where there are two 
certainly has more impact and more positive impact than 
oftentimes where there is one.
    Mr. Greenstein, let me ask you. Is TANF providing more or 
less Federal help to prepare people for work and support 
working parents than it was when we first seriously began to 
deal with the concept of implementing welfare reform?
    And in 2014, the States spent eight percent of their 
Federal and State TANF funds to work activities. Could States 
do a better job of coordinating work promotion and work 
supports for working, struggling families if they invested more 
of their TANF funds to this core purpose?
    And I noted that in his opening, Chairman Boustany 
mentioned the fact that there were 9.4 million more people in 
poverty in 2014 than in 2007. Could I get your reaction to 
that?
    Mr. GREENSTEIN. Certainly. Let me do the last one first. So 
if you look at the official poverty measure, there are 9.4 
million more people counted as being below the poverty line in 
2014 than in 2007, but most analysts across the political 
spectrum do not favor using the official poverty measure to 
compare different years because it does not count the earned 
income credit or SNAP or anything.
    And when you look at the programs that have expanded since 
2007, it is primarily things that do not count, like the earned 
income credit and the child credit. So when you use the broader 
census measure that analysts favor that count those things, you 
find that the increase in poverty from 2007 to 2014 is only one 
percentage point and is pretty much entirely explained by the 
economy. 2007 was the peak year of the prior recovery. In 2014 
median income was $1,100 lower in real terms than it was in 
2007. Long-term employment was twice as high.
    So when we compare apples to apples with the broader 
measure of poverty, we do find higher poverty in 2014, but 
entirely, I think, as a result of the economy.
    On the TANF question, I think what is unfortunate is if you 
track the period since TANF's creation, the share of TANF 
dollars, TANF and State Maintenance of Effort dollars, going 
into work related activities has fallen significantly over the 
period. State spending on work from both TANF and State MOE 
funds on work related activities adjusted for inflation is 
lower now than it was when TANF was first implemented. It has 
fallen in most years, and it is actually lower even in nominal 
dollars when you do not adjust for inflation.
    So I think if we had more adequate State investment in 
those activities coupled with some changes in the TANF rules to 
deal with, for example, some of the differences in how we have 
measures, the kind of outcome measures it uses versus the 
process participation measures TANF uses, we could get better 
coordination with both more resources and a closer alignment in 
which activities count and how we measure them.
    Mr. DAVIS of Illinois. Thank you very much. My time has 
expired so I will yield back, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentleman.
    Just a quick comment. I mean, I think we all agree the goal 
here is to get people back to work, and we can quibble about 
definitions of poverty and play with statistics, but I think 
there is broad agreement that the focus is to get people back 
to work, and that is meaningful work.
    We will now go to Mr. Dold next.
    Mr. DOLD. Thank you, Mr. Chairman.
    Congressman, always great to see you, and I want to thank 
you all for taking your time to come and join us, and frankly, 
I want to build off of, Mr. Greenstein, your initial comments, 
in which you said that the social safety net can and must be 
improved.
    And if we can just pull up that chart one more time, I 
mean, I think when I go back and talk to constituents, and 
certainly I know many of them are sitting around their kitchen 
tables and they are aware they are falling behind. We know 
poverty rates are up, but when we look at this chart, I mean, 
Mr. Holding talked about it being a Jenga game. I look at it 
like a game of Twister, and you are going to get tied up into a 
ball pretty quickly trying to deal with what we have got here.
    I think really what we are all looking to try to do is how 
do we improve this system, right? We want a social safety net, 
and it can and must be improved. So I guess my first question, 
Mr. Greenstein, is: how do we improve this system so that it 
does not look like a chart like this, so that it actually is 
trying to focus more resources to actually helping people get 
out of the social safety net because nobody wants to be there?
    We need to have it. It needs to be strong, but we need to 
get them, you know, back to work.
    Mr. GREENSTEIN. A great question. So on the one hand, a 
number of the individual programs have particular merit, and 
there are reasons for some of the eligibility criteria or other 
aspects they have, but then the tension is, as the whole panel 
has been talking about, when it makes coordination really 
difficult.
    I think that we have really important opportunities. I 
think Mr. Davis has been referring to this, really important 
opportunities through advances in information technology, with 
better data sharing.
    So only a few years ago most of these programs had paper 
bound systems. Someone would go to an office. They would 
provide documents for SNAP. They would go to another office a 
month later for Medicaid. Things were not coordinated. People 
fell on and off of programs.
    With advances in information technology, a number of States 
are making really major progress in integrating the data system 
so you can collect, for example, the income and verification 
and household circumstance data once periodically and use it 
for the multiple programs. You can adjust for the differences 
in the rules, and then that frees up more case worker time, 
instead of, you know, being the bean counter clerks, to be able 
to help people get jobs and give them counseling and things 
like this.
    I would really urge the subcommittee to look at what is 
called the Work Support Strategies Demonstration that has made 
major strides on this. It is a mix of red and blue States. 
There is no ideology or politics there, and with further 
advances in information technology and some further flexibility 
from Federal agencies, I think a lot more can be done on that 
front.
    But I think we really have the potential with advances in 
information technology to make major advances here to reduce 
administrative cost, to make the system easier to navigate, and 
to do better coordination.
    We also have to look at differing rules across programs, as 
I mentioned earlier. When a family is enrolled in a workforce 
program but then it does not count towards the TANF work 
participation requirement, that discourages agencies to work 
together and to put the family into a service that might be 
useful for them.
    I think some of the changes the committee had in the 
discussion draft earlier this year would really make progress 
in some of those areas.
    Mr. DOLD. Thank you.
    Ms. Corrigan, there are a couple of things I wanted to go 
over with you. In page 2 of your testimony you highlight that 
when you arrived in Michigan at the Human Services Agency in 
2011, you felt that the organizational culture was off, was too 
focused on signing eligible people up for programs quickly, and 
you think it suffered from a lack of real outcome measures.
    So I guess my question is: what would you consider to be 
the real outcome measures? What are the success points going 
forward that we should be looking at?
    And then I do want to talk to you real quickly also about 
Community Ventures Program and how it is helping employers.
    Ms. CORRIGAN. Very well. We were attempting to sign people 
up as quickly as possible. I think an example of that would be 
SNAP, the pressure to have people receive food assistance as 
quickly as possible without asking is this individual getting a 
job. You know, has the need for the social services safety net 
programs ended? Are they working? Have they found work?
    So that to me is a critical question that ought to be asked 
across our programs. That is the outcome metric. Are people 
getting to self-sufficiency? So that is one thing I would 
counsel.
    The second thing I want to mention is on the family 
formation issue because we know the data on single parenthood 
versus married parents, and I think that Ron Haskins and Isabel 
Sawhill from Brookings have done valuable work in talking about 
the success sequence and getting that word out.
    That is not happening, but we know that if you finish high 
school, if you get a job, get married, and then have children, 
in that order, your odds of being in poverty are reduced so 
much, but I am not aware that that family formation program has 
been publicized adequately, and I urge the success of that. We 
know what works, but it needs to be implemented across our 
Nation. So I think that would be critical.
    I am not sure if I answered your question yet.
    Mr. DOLD. I appreciate it, Ms. Corrigan. Thank you so much.
    Mr. Chairman, my time has expired.
    Chairman BOUSTANY. I thank the gentleman.
    Mr. Smith, you are recognized.
    Mr. SMITH. Thank you, Mr. Chairman.
    Mr. Chairman, I am pleased to be part of the subcommittee's 
work of examining the welfare system. The current maze of 
Federal programs creates far too many opportunities for 
taxpayer dollars to be wasted due to fraud and abuse.
    Some people need help. Others do not. I am extremely 
concerned that without changing our approach to lifting people 
out of poverty, some people who need help will not be able to 
navigate the maze of all the Federal programs to get the 
services they qualify for.
    It is a major problem when these programs offer benefits to 
people who do not need any because those benefits should go on 
to those who need it.
    A number of welfare programs automatically pay benefits for 
a full year before reviewing whether the recipients' needs have 
changed.
    Mr. Chairman, without objection I would like to submit a 
news article titled ``Michigan Woman Who Won $1 Million Lottery 
Ticket But Kept Using Food Stamps Loses Benefits'' from 2012 
into the record.
    Chairman BOUSTANY. Without objection.
    Mr. SMITH. Thank you.
    The report states that a Michigan woman won $1 million in 
the lottery, continued to receive $200 a month in State food 
assistance for six months. That is wasteful and ridiculous. She 
may have needed benefits before winning the lottery, but single 
people who earn a million dollars in any calendar year should 
not get food stamps.
    Cases like this take away limited resources from people who 
really need a hand up. When our programs lack proper 
eligibility reviews, we waste precious taxpayer dollars.
    It is this simple. If you are not eligible for benefits, 
you should not get benefits. There are more reports that detail 
how prisoners and even dead people collect millions of dollars 
in welfare benefits.
    Mr. Chairman, I would also like to introduce into the 
record a news article that says ``Massachusetts Audit Finds 
Dead Welfare Recipients Collecting Millions of Dollars.''
    Chairman BOUSTANY. Without objection.
    Mr. SMITH. Thank you, Mr. Chairman.
    Here I have a 2013 news article that detailed a State audit 
from Massachusetts where 18 million was distributed in 
questionable public assistance benefits. To quote this article, 
quote, ``in 1,164 cases, deceased recipients continued to 
receive a total of 2.39 million in benefits up to 27 months 
after they had been reported dead,'' not a month but 27 months.
    Dead people should not get benefits, especially more than 
two years after they have been dead. When they do, taxpayers 
are defrauded, and the people who need it most suffer.
    Mr. Chairman, without objection, I would like to submit one 
more article into the record. It is titled ``New Jersey Sent 
Welfare Checks to Prisoners.''
    Chairman BOUSTANY. Without objection it will be included.
    [The information follows: The Honorable Jason Smith 
Submission]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. SMITH. Thank you, Mr. Chairman.
    In May of 2013, the New York Times reported in this article 
that $24 million in benefits had been paid to ineligible 
prisoners. New Jersey has State laws requiring unemployment, 
welfare, and pension benefits only go to people available for 
work. If you are not available to work and ineligible for 
benefits, you should not get benefits.
    Again, I am concerned that we are not using our limited 
resources efficiently and upset that our programs are not 
making it to the people who need it the most.
    I could continue to list several examples of waste, fraud 
and abuse. It goes on and on. That is why we are here.
    Ms. Corrigan, I have a couple questions. In 2011, a GAO 
testified that simpler policies, better technology, and more 
innovation in evaluation could reduce inefficiencies. Has this 
happened?
    Ms. CORRIGAN. I do not think it has to the extent that it 
should, Congressman. In our State of Michigan, I think we made 
great improvements.
    I wanted to point out State law was amended around lottery 
winnings after the million dollar lottery winner, and last 
year's farm bill included provisions on lottery winnings as 
well. We worked to get that in.
    I totally agree with your point, and we took action to 
change it.
    Mr. SMITH. Good. So we often also discuss, Ms. Corrigan, 
that we need to cut down on bureaucracy and tear down silos at 
the State and local levels when it comes to administrating 
programs, but what can and should happen at the Federal level?
    Ms. CORRIGAN. I believe the same proposition applies here 
as well and that across committees there needs to be a look-see 
at safety net programs across committees that would tear down 
silos.
    For example, in Michigan, the biggest barrier our workers 
found was transportation. Getting people in rural States to the 
worksite is really difficult, and yet that is something that is 
not touched on well enough.
    So could it be that you would reach out across the 
committee silos to look at safety net programs across 
committees to see how would it affect a client, you know, what 
these various needs are, and how could they be solved?
    Mr. SMITH. I agree. On quick question. Do you know of any 
States that have model legislation where they are proactively 
identifying people who abuse the system?
    Ms. CORRIGAN. The State of Maine, Mary Mayhew, the 
Commissioner in Maine. I would invite her to be a witness. They 
are doing tremendous work on waste, fraud and abuse in Maine.
    Mr. SMITH. Thank you so much.
    I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    Mr. Crowley, you are recognized.
    Mr. CROWLEY. Thank you, Mr. Chairman.
    My colleagues on the other side of the aisle must have 
misread their calendar because Halloween, I believe, was on 
Saturday. It has come and gone. So if they were trying to scare 
people into thinking that there is some epidemic of spending 
too much in helping people, I think they missed their mark.
    What is really scary is what my colleagues plan to do going 
forward, what they propose to do in their budget, and every 
time we have had this discussion. Let us start with the premise 
of this hearing: that there are supposedly, and I quote, 80-
plus programs to help Americans. They say that as if helping 
Americans is something bad.
    I am looking at some of the data on the programs that they 
are calling into question, and the top ten programs that help 
low income Americans: Medicaid, Supplemental Nutrition 
Assistance Program, Supplemental Security Income, the earned 
income tax credit, Pell Grants--I am surprised that is on a 
welfare list--assistance to seniors on the Medicare Part D 
Prescription Drug Program, the additional child tax credit--
that is another one that kind of strikes me as interesting 
being considered a welfare program--Section 8 Housing Choice 
Vouchers, the Temporary Assistance for Needy Families Program, 
and grants to support education for the disadvantaged.
    Far from being duplicative as we have been hearing, I would 
say that those seem to cover a pretty wide range of critical 
needs, everything from health care to hunger to education and 
to housing. It seems my colleagues are not just comparing 
apples to oranges. They are comparing apples to the entire 
produce department.
    But that is a page out of their favorite play book: toss 
around scary numbers that are based on misleading data and then 
claim we need to cut those programs down. Criticize, 
consolidate, and cut, that is what they want to do. We have 
seen it time and again.
    Words get tossed around like ``coordination,'' 
``flexibility,'' ``consolidation.'' It all sounds great, but 
the effect is always the same. Let us have less of everything, 
funding, services, and people served.
    I would suggest that this does look complex. It looks 
complicated. Life is complicated, quite frankly, but having 
said that, this is an over exaggeration. I have circled about a 
dozen things that are not even duplicative, some of which are 
not even considered welfare by any reasonable standard.
    Mr. Greenstein, what have we seen historically when my 
colleagues on the other side of the aisle propose consolidating 
programs into block grants?
    Mr. GREENSTEIN. Well, I mentioned this earlier and talked 
about it in my testimony. I would make a distinction between 
situations where maybe one or two very similar programs are put 
together and it is called a block grant, like low income energy 
assistance, and areas where we have very broad block grants.
    So there have been 13 broad health-human services or social 
services block grants created over recent decades. In 11 of the 
13 the funding levels have fallen, in four cases by more than 
60 percent. We have actually just completed a new analysis. It 
will be out soon where we looked at the funding levels for all 
of these broad block grants since their inception, and 
basically as I said, 11 of the 13 fell, and if you take all 13 
as a group, the funding level in 2015 for the combined funding 
level is 28 percent below the 2000 level after adjusting for--
--
    Mr. CROWLEY. That is striking, and I am struck in 
particular by the example of social service block grant. That 
was a bipartisan program that both side of the aisle agree with 
to give flexibility to the States to make sure that that money 
is being spent properly.
    Funding was sharply cut over the years, and in 2012, 
Republicans on this Committee tried to eliminate the entire 
program saying it was too flexible. It seems step one is 
blocking grants. Step two is eliminating them altogether. So I 
guess step three will be throwing up our hands and wondering 
why States have so much trouble providing necessary social 
services to their constituency.
    Mr. Greenstein, in your experience is that attack on the 
social services block grant typical of block grant programs?
    Mr. GREENSTEIN. Well, the social services block grant, in 
one sense it is a little bit different in that it is actually a 
mandatory funding stream rather than a discretionary 
appropriation, but nevertheless, the funding experience has 
pretty much been the same. It has gone down very substantially 
in real terms.
    One of the issues with the very broad block grants is that 
the uses of them are so diffuse that it is often unclear what 
exactly the crystallized purpose is. How do you measure impact 
and how do you document it because it is so diffuse over so 
many areas?
    And that is probably one of the factors that has 
contributed to the funding erosion.
    Mr. CROWLEY. Mr. Greenstein, I thank you.
    Mr. Chairman, I just note my colleague had mentioned checks 
going to prisoners in the State of New Jersey. I just wanted to 
point out I believe the study was of 2009 to 2011. I believe 
that Governor Christie, Republican governor, is the governor of 
the State of New Jersey.
    And I yield back the balance of my time.
    Chairman BOUSTANY. I thank the gentleman.
    Just to clarify, this chart that we have is actually a 
graphic depiction based on a CRS article. We just put it in 
graphic form to demonstrate the complexity because I do not 
think anybody can deny the level of complexity creates problems 
and some waste in the system, and I think there is a way that 
this Committee can work to try to take the programs under its 
jurisdiction to make them more effective to help the people who 
are truly in need.
    Mr. CROWLEY. Mr. Chairman, would you yield for one moment?
    Chairman BOUSTANY. I will yield.
    Mr. CROWLEY. Would you consider Pell Grants welfare?
    Chairman BOUSTANY. I consider Pell Grants to be a program 
to help low income individuals. This is based on the CRS 
article.
    Mr. CROWLEY. Do you believe that middle class families 
actually receive Pell Grants?
    Chairman BOUSTANY. Middle class families do, but again, you 
have got to look at the circumstances.
    With that we are going to move on. I now go to Mrs. Noem.
    Mrs. NOEM. Thank you, Mr. Chairman.
    I represent the State of South Dakota. So I appreciate all 
of you being here. Out of the top 11 counties in the Nation 
that are struck with poverty, I have five of them in my State. 
Many of them are on tribal lands and hit my Native American 
tribes and it is generational poverty.
    I believe that a lot of the people in South Dakota face and 
utilize programs, but yet it is not necessarily lifting them 
out of the programs and getting the results that we truly do 
need.
    We have a very low unemployment rate in our State, but in 
some areas we have 80, 85 percent unemployment just because of 
where they are located, lack of economic development, but also 
because we have not had the ability to have programs that truly 
gave the work force training that we needed and the 
infrastructure that we needed to really change their lives.
    So I am very interested in reforming these programs so that 
we see more results, and I guess, Mr. Davis, I would like to 
ask you in particular because of your experience on this 
Committee in the past: how many of these program that we see 
displayed throughout the committee hearing on the chart have 
been evaluated for their effectiveness that you are aware of?
    Mr. DAVIS. Well, I think the question is there are 
evaluations that take place internally and reports that are 
submitted by agencies, but the one problem that I found early 
on where Ranking Member Doggett and I chose to take the issue 
of data standardization is there were no common systems of 
measurement.
    And I think one of the areas where the parties can talk 
past each other is to say any time the issue of cost control is 
raised that we are advocating cutting or elimination of the 
programs. When we look at populations in need, there are 
processes or gaps that are created that create excessive cost 
because of excessive time or the problems that a person has 
simply to access those benefits, and this can be heightened in 
rural areas simply because of the distance and lack of 
proximity to any type of primary care services.
    What we found, I think, conclusively, and it really follows 
a pattern of any organization that begins to move in this 
direction to optimize performance, yes, technically the 
commercial term might be ``cutting cost,'' but I think 
realistically you are creating capacity and opportunity for 
those additional dollars that may be spent for overhead that 
can be redirected into other areas.
    Mrs. NOEM. I think we all certainly want to make sure that 
the taxpayers' dollars are being well spent and that they are 
actually beneficial and not being wasted or abused in some 
manner like we heard discussed earlier. But I am more 
interested in making sure that they actually work, that we do 
not continue to spend money that does not work.
    So there is not a standardized evaluation system at all 
that we see rise to the top in most of these programs. Is there 
one that you would recommend or at least three or four 
different triggers we should be watching in these programs that 
would show this program is effective?
    Mr. DAVIS. I would say that each customer area, if you 
will, is different and different types of businesses, for 
example, that use data warehousing as we discussed earlier and 
build these logical data models, they will take, say, each 
individual customer who will have 15 to 17,000 attributes in 
one file about them, and it is in order to serve them better.
    A retail outlet might have a completely different objective 
in selling a person clothes than, say, a bank. In a banking 
system or in detecting credit card fraud or ways to serve or 
sell more services to that customer, data scientists working 
with business operations professionals simply develop 
algorithms or analytic tools to identify what those needs are 
and every time that there is an input in the system, it updates 
that central data record.
    So I might be an educator and Ms. Corrigan might be a 
housing person and an unrelated TANF or SNAP situation happens. 
Something is input in that system, and I suddenly realize my 
person has lost their job, and I have a child now possibly 
moving out of a school district. Is there a way to preempt 
that?
    She might have there is an issue with housing that has to 
be addressed immediately, and rather than, say, making your 
person on the tribal land have to drive 50 miles if they have a 
car or find that, the time can be overwhelming, and it can 
create a situation that causes hopelessness where folks just 
give up.
    Mrs. NOEM. Yes.
    Mr. DAVIS. And I think if we look in our own lives at that, 
we have all felt those kinds of pressures in different areas, 
and what we are talking about is simply simplifying that 
process so that we can serve more effectively.
    And I think the rhetoric of eliminate a cut or somehow the 
motive is someone on benefits is bad or, you know, the desire 
of one side is simply to pour more money is not really the 
case. I think we are looking at a very clinical process problem 
that once fixed can model much of the best of the commercial 
sector.
    Mrs. NOEM. So perhaps that first step would be making sure 
that we have an area where data can be collected, that all 
programs can utilize and look at the same family entity that is 
accessing these programs so that we are starting with the same 
data point. Is that what you are suggesting?
    Mr. DAVIS. Exactly, and then from that place, each agency 
could draw the data or the analytics that they needed to serve 
more effectively, but it is all populated in one area.
    And what would come with that, frankly, is predictive 
modeling where you would, in effect, be able to begin to see 
trends in advance of the likelihood of, say, a child going into 
crisis, potential domestic abusive situations that are going 
on, you know, addressing what is done, for example, from a jail 
database management process that can not only effect in real 
time a do not pay stop on benefits, but if there is a child 
involved, it could trigger someone else to make sure that that 
child's needs are met effective so that they do not fall 
through the system.
    And I think creating additional work-arounds is not the 
answer. The idea is simplifying this data to get a realistic 
picture of what is happening so that the front line workers can 
help in real time.
    Mrs. NOEM. Well, Mr. Chairman, I know I am out of time, but 
I do want to talk about the importance of having a sense of 
urgency on these programs. Some of my tribes right now are 
dealing with a suicide epidemic of their youth because they 
feel hopeless, and they have seen these programs continue to be 
utilized among their people and not get them out of poverty and 
not give them a hope for a future, and that is why I think it 
is critical that we do not just have this hearing and talk 
about this. It is critical that we take the ideas and 
suggestions that we have heard today from our witnesses and 
utilize them to reform these programs so that they work and get 
people off programs and providing for their families.
    With that I yield back.
    Chairman BOUSTANY. I can assure my colleague that is the 
intent, and that is to move forward with policy that will help 
Americans in need.
    With that, I will now yield to Mr. Young.
    Mr. YOUNG. Thank you, Mr. Chairman.
    I want to thank all of our panelists for being here today. 
A special shout-out to Scott Sanders. I really appreciate your 
service as Indiana's State Commissioner for the Department of 
Workforce Development. You are now doing us proud nationally, 
learning best practices and promulgating those.
    You know, our Federal welfare system illustrated by this 
chart of various benefits and services to low income 
individuals, clearly too convoluted. We need to tear down the 
walls. We need to connect the dots and focus more on outcomes 
as opposed to inputs. I think that is a bipartisan sentiment.
    There are implications not just on our Federal FISC, and 
those are very important, but real human impacts that having 
suboptimal constellation of programs results in.
    So on the fiscal end I will not belabor this point too much 
because I am, frankly, more focused on improving people's lives 
beyond just the fiscal implications, but I think it is 
important to note that our Federal Government devotes roughly 
one-sixth of its spending to ten major means tested programs 
and tax credits.
    And in the four decades since I have been on this earth, 
spending on those ten programs has risen tenfold. I do not 
think any of us would say that lives have improved tenfold. We 
know that spending is expected to continue to grow another 80 
percent in the next decade.
    So before we spend all of this money and as we continue to 
try and improve lives through our Federal social safety net 
program, we of course need to improve the whole constellation 
of various programs here.
    Since 1990, as I understand it, there have only been ten 
entire Federal social programs that have been tested using the 
so-called gold standard for testing such programs, randomized 
controlled trial, multi-site evaluations, and out of those ten 
programs, I have been briefed that only one has really had any 
sort of even modest effects, positive effects. Nine have shown 
weak or no effects.
    So this results in capability deprivation, as a Nobel Prize 
winning economist once characterized poverty. We need to 
harness everyone's capabilities throughout our economy. It will 
benefit all of us. It is the right thing to do.
    So as we focus on measuring outcomes, not inputs, I am very 
interested in the comments of Mr. Lyon and also Judge Corrigan. 
It is something both of you in your written testimony made note 
of.
    How do we incentivize States to experiment with new 
approaches, Mr. Lyon, so that we can arrive at better outcomes?
    You cited the Michigan example. I wonder whether there 
might be some financial incentives that we offer States so that 
they can experiment more and we can figure out exactly what 
does work, perhaps social impact bonds or performance based 
contracting prizes. What are your thoughts on that?
    Mr. LYON. I think definitely anything you can do to 
incentivize programs that work is integral in this. There are 
different funding streams that could do that, you know, a 
higher Federal match, for example, for a program that works, 
that is preventive, that is evidence based. That is definitely 
the way to go, especially if it improves people's lives and 
saves money long term.
    And when I say ``improved people's lives'' I also mean 
works from generation to generation so that we begin to end the 
cycle of hopelessness that so negatively impacts our culture. 
That is very important.
    The first and most important part though is we really have 
to agree on what the metrics are. What is the outcome that we 
are looking for? Is it employment? Is it health? Is it self-
sufficiency? Is it a customer satisfaction survey? I would 
comment it should not be. There should be more solid outcomes, 
and that is very important.
    Ms. CORRIGAN. I wanted to commend to you, Congressman 
Young, a program at the University of Notre Dame conducted by 
Professor James Sullivan, the Laboratory for Economic 
Opportunity.
    Part of the problem that States have in testing to find out 
what really works is the expense, and I believe that Professor 
Sullivan's program at Notre Dame is creating a model for the 
country, in effect, because what they are doing is attempting 
to marry up less expensive testing with programs so that we can 
find out, yes, you know, with the best means that exist out 
there, does this really work or not, and I know you are 
familiar with Professor Sullivan.
    Mr. YOUNG. I am.
    Ms. CORRIGAN. But I want to commend that as a model that 
would be helpful to incentivize States to find out what is 
working in this area.
    Mr. YOUNG. So if the chairman will indulge me, I am 
familiar with LEO up at the University of Notre Dame and 
Professor Sullivan's good work, and perhaps he would be a 
witness in the future that we might bring before this 
Subcommittee for testimony.
    Thank you, and I yield back.
    Chairman BOUSTANY. I thank the gentleman. We will certainly 
take that under consideration.
    In closing, a lot has been said about this chart depicting 
the complexity of our safety net programs. I just want to 
emphasize again that this is simply a graphic that was taken 
from a very extensive CRS report entitled ``Federal Benefits 
and Services for People with Low Income Programs and 
Spending.''
    And the intent was to look at the size and composition of 
Federal spending directed toward low income people as a focus 
of public policy, and my friend from New York raised a question 
about the Federal Pell Grant Program. Well, in this report it 
simply says, ``The Federal Pell Grant Program is the largest 
education program for people with limited incomes accounting 
for 58 percent of targeted Federal education spending in fiscal 
year 2013 and ranking as the fifth largest program in this 
report.''
    And so it is for needy students. I mean, these are people 
who have need, and the point of all of this is we have to 
understand the complexity of this. We have to understand the 
inherent problems of coordinating these programs if we are 
going to create a safety net system that works for all 
Americans because we have far too many Americans in need today.
    That is the intent of this hearing. That is the intent of 
this Subcommittee in moving forward.
    So with that, in closing I want to thank our witnesses for 
their tremendous testimony. This has been terrific and has been 
very, very helpful to all of us as we try to understand these 
important issues. You have shed light on some very important 
and complicated issues.
    If members have additional questions for the witnesses, 
they will submit them to you in writing, and we would 
appreciate receiving your responses for the record within two 
weeks so we can complete the record.
    And with that the subcommittee stands adjourned.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]
    [Submissions for the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                 [all]
</pre></body></html>
